HHS/OIG, Audit - "Review of Tulane Medical Centers Reported Fiscal Year
2005 Wage Data," (A-01-08-00518)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Tulane Medical Centers Reported Fiscal Year 2005 Wage Data," (A-01-08-00518)
July 14, 2008
Complete
Text of Report is available in PDF format (673 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Tulane Medical Center (the Hospital) reported unsupported
and unallowable costs totaling $298,000 in its fiscal year (FY) 2005 Medicare
cost report.  Under the inpatient prospective payment system for acute-care
hospitals, CMS adjusts the Medicare base rate paid to participating hospitals by
the wage index applicable to the statistical area in which hospitals are
located.  CMS calculates wage indexes based on hospitals wage data reported 4
years earlier.  Our correction of the Hospitals error decreased the average
hourly wage rate from $35.69 to $35.59.  If the Hospital does not revise the
wage data in its FY 2005 cost report, the FY 2009 wage index for the Hospitals
statistical area will be overstated, which will result in overpayments to all of
the hospitals that use this wage index.
We recommended that the Hospital submit a revised FY 2005 Medicare cost report
to the fiscal intermediary and implement procedural improvements.  In comments
on our draft report, the Hospital provided information on actions taken to
implement our recommendations.